                               NATIONAL SCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                        ,          ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL

  MEMORANDUM

  FROM:


  Via:
                -1                        Special Agen
                                                   .st&
                                                          -
                                             t Inspector General for Investigations

  DATE:

  RE:               Case Closeout #I99070032




 On July 19,1999 OIG was notified by      -
 The NSF administers the United States Antarctic Program (USAP) for the entire Federal
 Government through a contract for support operations to the USAP. Network
 administration and other IT operations for the USAP are included as part of the
 contractor's duties.

                                                       Manager of Technology
 Development, Office of Polar Programs (OPP) that intruders had illegally accessed six
 U.S. Polar Program servers at the South Pole Station, McMurdo Stations, and ASA
 Headquarters in the June and July 1999 timeframe. The six known compromised systems
 include oak.spole.gov (199.4.250. I), pamandal .spole.gov (204.89.132.91), and
 pamanda2.spole.gov (204.89.132.92) at South Pole Station; terror.mcmurdo.gov
 (1 57.132.107.66) and vinson.mcmurdo.gov (157.132.1 19.50) at McMurdo Station; and
 www.asa.org (198.59.57.65) at ASA Headquarters.

 The calculated financial damages are based on estimated expended labor resources
 including ASA Headquarters, South Pole, and McMurdo personnel and procured new
 hardware at Denver. These damages do not include labor and hardware costs for the
 pamandal and pamanda2 servers'.
   -        -



 ' The parnanda servers are administered under the control of Antarctic Muon and Neutrino
 Detector Array (AMANDA) Project scientists, though they share South Pole Network and have a
 trust relationship with oak.spole.gov (under full ASA control). AMANDA, funded by NSF
 Physics Division and Polar Programs, is a collaborated project composed of the
  In addition to financial damages, other likely damages and risks include compromised
  user accounts and passwords at South Pole and McMurdo Stations .and unauthorized
  access to proprietary scientific data fiom the AMANDA Project.

 Investigation

 Analysis of the available log evidence for the South Pole (oak.spole.gov only2) and
 McMurdo intrusions, provided to OIG Agents, indicates the intrusions or attempts to
 intrude backdated to March through May 1999 timeframe, and originated from multiple
 international Internet Service Provider (ISP) accounts as a points of unauthorized entry or
 target reconnaissance. The logs capture only four intruder ISP accounts, which originate
 fiom the U.S. (MCI World Com, EarthLink, and US West) and Canada (Rogers@Home).
 The other intruder IP addresses for the South Pole and McMurdo intrusions originate
 primarily from Brazil and Chile.

 The OIG Agent sent 2703 (f) letters notifying the three U.S. ISPs of a potential 2703
 Court Order for all subscriber and transactional data. The Agent contacted the Canadian
 Royal Mounted Police, Computer Crime Division for investigative assistance regarding
 the Canadian ISP. We referred the case to the Eastern District of Virginia, U.S.
 Attorney's Office to request Court Orders and coordination. Subsequently, in December,
 we established the four ISPs no longer had the requested subscriber and transactional
 information, as most ISPs commonly do not backup beyond one month.
                        ,   '



 Findings

As a result of the inability to trace the first point of the intrusions, we were fbrced to
close the case unsolved. We subsequently communicated recommendations to OPP for
upgrading station network security and future incident response coordination, due to our
assessment that South Pole and McMurdo servers remain likely and easy targets.




  The only pamandal and pamanda2 logs in our possession are the logs attached to the CERT. It appears
that these logs represent activity captured by the intruder's sniffer.
